                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A12080051                                                                         Page 1 of 1



                 OIG received an allegation of intellectual theft and plagiarism in an NSF Proposal 1 with a PI
         and co-PI. 2 Specifically, we found a copied figure which lacked adequate attribution and we found
         no references in the proposal to existing capabilities in the discipline. Based on the evidence and the
         Subjects' responses to our inquiry letter, we determined that, while there was inadequate attribution
         to the source of the figure, the Subjects' actions did not rise to the level of research misconduct. We
         also determined that the allegation of intellectual theft was unsubstantiated. We sent the Subjects a
         Questionable Research Practice letter, reminding them of the importance of being diligent in
         attribution practices.

                   This case is closed and no further action will be taken.




NSF OIG Fonn 2 (11/02)
